audit report



Return to the USDOJ/OIG Home Page



Problem Solving Partnerships Grant Administeredby the Osage Tribe of Oklahoma
GR-80-00-002
November 9, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of Problem Solving Partnerships (PSP) grant number 98-PR-WX-0573, administered by the Osage Tribe.  The purpose of the grant was to define the problem of underage drinking and determine an effective plan of action to decrease underage drinking on the Osage Reservation.  The Osage Tribe was awarded $76,199 for this project with a grant period of May 1, 1997, through April 30, 1998.  They were subsequently granted an 18-month extension through October 31, 1999. 

	The grant was originally awarded to the Osage Nation.  However, on September 17, 1997, the United States Court of Appeals for the Tenth Circuit decided Fletcher v. United States, 116 F. 3d 1315 (10th Cir. 1997).  The ruling declared that the mandate to govern the Osage people rested with the Osage Tribal Council (Tribe) not with the Osage Nation.  As a result of the ruling, the Office of Justice Programs deobligated 1997 PSP grant funds and re-awarded the grant to the Osage Tribe on
April 6, 1998.

We reviewed the Tribe's compliance with the conditions of the grant, as well as regulations and directives applicable to grants awarded under the Public Safety Partnerships and Community Policing Act of 1994.  As delineated below, we found unallowable and/or unsupported costs, as well as other administrative and budget discrepancies.  As a result, we question $9,249 and recommend an additional $18,659 be put to better use. 

Indirect cost was not allowable according to the COPS PSP Grant Owner's Manual.  However, COPS approved indirect costs of $16,058 based on an indirect cost rate of 26.7 percent that was not current at the time the Tribe accepted the award.  Subsequently, the Tribe reported its indirect rate as 17.6 percent on three Financial Status Reports.  Of the $16,058 approved, we identified unallowable expenditures of $6,066 and $9,992 as funds put to better use. 

	Consultants/contracts expenditures of $1,048 were unauthorized because the Tribe's reprogramming request for consultant/contracts costs of $5,500 was not approved.  As a result, the remaining $4,452 that was reprogrammed to supplies rather than consultants/contracts as the Tribe requested is included as funds put to better use.   

	The Tribe requested fringe benefits for the Juvenile Specialist at 26 percent but recorded benefits at 11.6 percent or less for the Juvenile Specialist and Community Advocate positions.  Thus, fringe benefit expenditures of $1,916 were unsupported and fringe benefit costs of $4,215 are funds put to better use. 

	The Tribe charged the grant with unallowable direct costs totaling $219 for wireless and other telephone services and a beverage.

	The Tribe did not obtain reprogramming approval for cumulative budget category changes that exceeded 10 percent of the award.

	The Tribe paid a replacement Juvenile Specialist 79 percent above the requested hourly rate.

	The Tribe purchased a laptop computer and a printer with grant funds and did not inventory the equipment as Tribal property.

	The Tribe did not submit one of five required Financial Status Reports, thereby not notifying OJP of spending totaling $35,684.  Two reports were not submitted timely.   

	The revised timeline for the project was not consistent with grant activities, and the PSP Report on Analysis lacked detailed specifics for assessing the project.  

These weaknesses are discussed in the Findings and Recommendations section of this report.  Our audit scope and methodology are described in Appendix I.